           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    INDIVIDUAL REPRESENTATIVE
      PAYEES FOR THE SOCIAL
     SECURITY ADMINISTRATION
       IN THE SEATTLE REGION

    March 2005    A-09-05-15057




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   March 8, 2005                                                                             Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the Seattle
        Region (A-09-05-15057)

        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing, and shelter needs were being met.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income (SSI)
        recipients when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interest; and preference is normally given to a parent, legal guardian, spouse, or other
        relative of a beneficiary.2 SSA considers payments to a representative payee to have
        been used for the benefit of the beneficiary if they were spent on the beneficiary’s
        current maintenance—which includes the costs incurred in “…obtaining food, shelter,
        clothing, medical care, and personal comfort items.”3

        1
          The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
        3
            20 C.F.R. §§ 404.2040(a) and 416.640(a).
Page 2 - Carl L. Rabun

We are conducting a nation-wide review of individual representative payees serving
14 or fewer beneficiaries (Appendix C). There are approximately 4.3 million of these
types of representative payees who serve approximately 5.5 million beneficiaries. We
selected a random sample of 275 individual representative payees for review, of which
5 were in the Seattle Region. These five representative payees receive and manage
approximately $3,343 in monthly benefits for five beneficiaries.

RESULTS OF REVIEW

We confirmed the existence of the five beneficiaries in the care of the five
representative payees in the Seattle Region; and, through personal observation
and interviews, we found that all five beneficiaries' food, clothing, and shelter needs
were being met.4 Nothing came to our attention that would lead us to believe the
representative payees did not use the Social Security benefits received for the
beneficiaries’ needs. However, we found one representative payee turned over a
significant portion of a benefit check directly to a beneficiary who may have been
capable of managing his own benefits. In addition, we found that SSA did not take
prompt action on the events reported by two representative payees.

Beneficiary May Have Been Capable of Managing His Own Benefits

A representative payee’s primary responsibility is to ensure the beneficiary’s day-to-day
needs are met. This includes food, shelter, clothing, medical care, and personal
comfort items.5 It also includes, but is not limited to, regularly meeting with the
beneficiary to ascertain his/her current and foreseeable needs.6

Of the five representative payees in our sample, one turned over a significant portion of
the benefit check directly to the beneficiary. This occurred because the representative
payee believed the beneficiary was capable of managing his own benefits. The
beneficiary received $564 in monthly benefits. The representative payee estimated that
she turned over $536 (95 percent) to the beneficiary. SSA policy allows this practice
as long as the representative payee gives the beneficiary direction or instruction about
how to use the funds. In addition, the representative payee must be able to accurately
account for how the benefits were used. However, SSA policy also states this practice
may suggest the beneficiary is capable of managing his/her own benefits.7


4
  Of the five representative payees, two representative payees were the beneficiaries’ spouses,
one representative payee was the beneficiary’s father, one representative payee was the beneficiary’s
sister-in-law, and one representative payee was the beneficiary’s aunt.
5
    SSA, POMS, GN 00605.067 D.2 and GN 00602.001 A.2.
6
    SSA, POMS, GN 00502.113 C.1.
7
    SSA, POMS, GN 00605.066 B.2 and GN 00605.067 D.1.
Page 3 - Carl L. Rabun

According to the representative payee, the beneficiary used these funds to pay for such
expenses as rent, utilities, insurance, food, and clothing. Each month, the beneficiary
submitted a list of planned expenses to the representative payee. In addition, the
representative payee generally obtained receipts to verify these expenses. SSA staff
advised the representative payee to continue this practice and closely monitor
the beneficiary’s use of his funds. In addition, SSA staff advised the representative
payee to contact the local SSA field office if the beneficiary believes he is capable of
managing his own funds. At that time, SSA will reevaluate the beneficiary’s need for a
representative payee.

SSA Did Not Take Prompt Action on Events Reported by Representative Payees

Representative payees must report events, such as changes in income and living
arrangements, on behalf of SSI recipients.8 SSA must act as quickly as possible to
determine whether such events affect the recipient’s SSI eligibility or payment amount.9

For two of the five representative payees in our sample, we found that SSA did not
take prompt action on the events reported by its representative payees. These events
involved SSI recipients who had changes in income and living arrangements. Although
both representative payees had notified the SSA field office of these events, SSA did
not perform a timely review to determine whether the recipients’ entitlement or payment
amount was affected. As a result, one recipient received $340 in SSI overpayments.

In one case, the representative payee maintained a household for his stepdaughter,
stepson, and son (the recipient). The representative payee informed SSA that his
stepdaughter and stepson had moved out of the household in April and July 2004,
respectively. However, these individuals were still included as part of the household at
the time of our site visit. Because of the change in living arrangements, the recipient
received $340 in SSI overpayments for March through September 2004. During our
review, SSA took corrective action and established the overpayment.

In the other case, the representative payee and his wife (the recipient) moved into an
apartment in May 2004. The representative payee received free rent and utilities as
the apartment manager and promptly reported such income to SSA. However, at the
time of our site visit, SSA had not determined whether the change in income affected
the recipient’s entitlement or payment amount. SSA subsequently performed a
redetermination and concluded the change in income did not result in an overpayment.




8
    SSA, POMS, SI 02301.005 B.2.
9
    SSA, POMS, SI 02301.010 C.1 and C.2.
Page 4 - Carl L. Rabun

CONCLUSIONS AND RECOMMENDATIONS
We confirmed the existence of the five beneficiaries in the care of the representative
payees. In addition, based on our observations and interviews, the beneficiaries’ food,
clothing, and shelter needs were being met. However, for one individual, we found the
representative payee turned over a significant portion of the benefit check directly to a
beneficiary who may have been capable of managing his own benefits. We also found
that SSA did not take prompt action on the events reported by two representative
payees.

We recommend that SSA:

1. Follow up with the representative payee to determine whether the beneficiary is
   capable of managing his benefits.

2. Make appropriate collection efforts for the $340 overpayment resulting from the
   change in living arrangements for one representative payee.

3. Ensure field offices take prompt action on any events reported by representative
   payees that may affect the recipient’s entitlement or payment amount.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix D for the text of SSA’s
comments.




                                         S
                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
C.F.R.     Code of Federal Regulations

POMS       Program Operations Manual System

SSA        Social Security Administration

SSI        Supplemental Security Income

U.S.C.     United States Code
                                                                                 Appendix B

Scope and Methodology
Our population included all individual representative payees within the contiguous
48 States serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our
objective, we:
•   Reviewed the Social Security Administration’s policies and procedures for
    monitoring representative payees and their responsibilities for the beneficiaries in
    their care.
•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004 meeting our selection criteria.
•   Selected a random sample of 275 representative payees nation-wide. We are
    issuing a separate report on the nation-wide results, as well as separate reports for
    each of the 10 SSA regions.1

For the five representative payees in the Seattle Region, we
•   verified the identities of five representative payees and five beneficiaries they
    served;
•   interviewed five representative payees;
•   interviewed five beneficiaries; and
•   visited and observed the living conditions of five beneficiaries.

We performed our review in Corvallis, Oregon; Salem, Oregon; Longview, Washington;
Oak Harbor, Washington; and Spokane, Washington. Field work was conducted
between August and September 2004. We conducted our review in accordance with
Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.



1
  SSA, OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees
for the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
                                                                            Appendix C

Sampling Methodology and Results
Nation-wide Review

We obtained a data extract from the Social Security Administration’s Representative
Payee System of all individual representative payees having 14 or fewer beneficiaries
in their care as of May 20, 2004. This population was 5,380,635 representative payees
serving 6,818,696 beneficiaries.

From this population, we excluded representative payees who had any of the following
characteristics:
•    residing outside the 48 contiguous States;
•    identified in the Representative Payee System as only serving as their own payee;
•    having all beneficiaries in their care in noncurrent pay status;
•    having an invalid State code or military address; or
•    managing total funds of $50 or less monthly.

This reduced our sample population to 4,306,779 payees serving 5,520,303 beneficiaries.
We randomly selected 275 representative payees from this sample population for review.

Seattle Region Sample Cases

Initially, 5 of the 275 sample cases chosen were located in the Seattle Region. However,
one representative payee was dropped from our review because of the beneficiary’s death.
One representative payee was added to our Region for review because a representative
payee in the Chicago Region stopped serving as a payee, and the replacement sample
case randomly chosen was located in the Seattle Region.

Accordingly, our review of the Seattle Region consisted of five representative payees. Our
findings in the Seattle Region will be included in a national report, where statistical
projections will be made. The following table provides the details of our sampling results in
the Seattle Region.

                                        Sample Results

                                                                 Number      Dollar Amount
                     Sample Results                              of Cases      of Cases
    SSA Did Not Take Prompt Action on Reported Events                2            $340
                  Appendix D

Agency Comments
MEMORANDUM

Date:        March 1, 2005

To:          Inspector General

From:        Regional Commissioner
             Seattle Region

Subject:     Individual Representative Payees for the Social Security Administration in
             the Seattle Region (A-09-05-15057) – SEATTLE REPLY


Thank you for the opportunity to comment on the draft report of the OIG audit on
Individual Representative Payees in the Seattle Region. We are pleased that the audit
found that the representative payees appeared to be using the Social Security and
Supplemental Security Income benefits for the beneficiaries’ needs. We understand the
importance of ensuring that payees fully understand their responsibilities and we remain
committed to continuing to provide support and guidance to our field personnel to
preserve the integrity of the representative payee program in the Seattle Region.

Recommendations

You provided us with three recommendations in this report. Our response to each
recommendation is below:

Follow up with the representative payee to determine whether the beneficiary is
capable of managing his benefits.

We agree with this recommendation.

We evaluated the individual’s capability and made him his own representative payee on
February 1, 2005.

Make appropriate collection efforts for the $340 overpayment resulting from the
change in living arrangements for one representative payee.

We agree with this recommendation.

We posted the overpayment to the record on September 13, 2004 and sent the
individual a notice of overpayment on September 28, 2004.

Ensure field offices take prompt action on any events reported by representative
payee that may affect the recipient’s entitlement or payment amount.

We agree with this recommendation.



                                          D-1
We will continue to provide appropriate guidance and assistance to our employees so
that representative payee reports that may affect entitlement or payment amounts are
handled timely.

Thank you for the opportunity to comment on the draft report. If your staff have any
questions, they may contact Joan Nicholson, RSI Programs and Systems Team, by
phone at 206-615-2128 or by email at joan.nicholson@ssa.gov.




                                         Carl L. Rabun




                                          D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   Manfei Lau, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-09-05-15057.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit

OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations

OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations

OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
